No. 20-1029

In The Supreme Court of The United States
City of Austin, TX v. Reagan National Advertising of Austin, Incorporated, et al.
AFFIDAVIT OF SERVICE
I, Shelly N. Gannon, being eighteen years or older, do certify under penalty of
perjury that the foregoing is true and correct. That, on this, the 20th day of August,
2021, I filed the foregoing with the United States Supreme Court electronically and
forty (40) paper copies via UPS Ground Transportation. I further certify that the
foregoing was served via electronic mail and three (3) copies of the same, via UPS
Ground Transportation, to the following:
Renea Hicks
Law Office of Max Renea Hicks
P.O. Box 303187
Austin, TX 78703
(512) 480-8231
rhicks@renea-hicks.com

Michael R. Dreeben
O'Melveny & Myers LLP
1625 Eye Street, NW
Washington, DC 20006
(202) 383-5300
mdreeben@omm.com

Counsel for Petitioner

Counsel for Petitioner

Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com

J. Allen Smith
SettlePou
3333 Lee Parkway, Eighth Floor
Dallas, TX 75219
(214) 520-3300
asmith@settlepou.com

Counsel for Respondent Reagan National
Advertising of Austin, Inc., et al.

Counsel for Respondent Lamar
Advantage Outdoor Company, L.P.,
d/b/a The Lamar Companies

Bryan Russell Horton
George Brothers Kincaid & Horton LLP
114 W. 7th Street, Suite 1100
Austin, TX 78701
5124951400
rhorton@gbkh.com
Counsel for Respondent Reagan National Advertising of Austin, Inc.

Shelly N. Gannon
Gibson Moore Appellate Services, LLC
206 East Cary Street
P.O. Box 1460 (23218)
Richmond, VA 23219
(804) 249-7770 – Telephone
(804) 249-7771 – Facsimile
shelly@gibsonmoore.net
For:
JOHN J. KORZEN
Counsel of Record
WAKE FOREST UNIVERSITY SCHOOL OF LAW
APPELLATE ADVOCACY CLINIC
Post Office Box 7206
Winston-Salem, NC 27109
(336) 758-5832
korzenjj@wfu.edu
LISA SORONEN
STATE AND LOCAL LEGAL CENTER
123 N. Capitol St. N.W.
Washington, DC 20001
(202) 434-4845
lsoronen@sso.org
Counsel for Amici Curiae
Signed and subscribed before me on this the 20th day of August, 2021.

